            OFFICE OF

     THE INSPECTOR GENERAL


 SOCIAL SECURITY ADMINISTRATION



     EVALUATION OF THE EFFICIENCY

        OF USING FORMS SSA-1587

         AND SSA-1588 TO DETECT

        UNREPORTED MARRIAGES



   September 2001      A-13-01-31002





  MANAGEMENT

ADVISORY REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                   ~Sl!cv
                                                  OV
                                                   ~~
                                                 Wft,s~~
                                                 \~ 1IIIII1
                                                          ~#
                                                    i\'IS~t'

                                     SOOAL           SECURITY
                                     Office of the Inspector General
MEMORANDUM
Date:  SEP           25   LOrn
                                                                             Refer To:
        Larry G. Massanari
To:     Acting Commissioner
         of Social Security

From:   I nspector        General




s b ' t Management Advisory Report: Evaluation of the Efficienc y of Usin g Forms        SSA-1587
 u Jec:
        and SSA-1588 to Detect Unreported Marriages (A-13-01-31002)



        OBJ ECTIVE

        This Management Advisory Report describes the methodology and analysis used during
        our evaluation of the efficiency of using Forms SSA-1587 and SSA-1588, Beneficiary
        Recontact Report, to detect unreported marriages for dependent children aged 15 to 17.

        BACKGROUND

        In 1993, the Social Security Administration (SSA) implemented the Beneficiary
        Recontact Program (BRP) to detect unreported marriages. At that time, SSA used
        Form SSA-1588 to collect this information from dependent children aged 15 to 17 who
        received Old-Age, Survivor, and Disability Insurance (OASD1) benefits. Dependent
        children are required to self-report marriage, which is a terminating event for receiving
        OASDI benefits. In September 1996, SSA began sending a separate form, Form
        SSA-1587, to dependent children's representative payee to inquire about the child's
        marital status.

        SSA uses an independent contractor to print, handle, and mail one initial mailing of the
        Forms and one follow-up mailing. The contract is for a 1- year period, renewable each
        March.


        SCOPE AND METHODOLOGY

        The scope and methodology used for this evaluation are discussed in Appendix A.
Page 2 -Larry   G. Massanari


RESULTS

During Calendar Years (CY) 1999 and 2000, our review of BRP-related data indicated
that Forms SSA-1587 and SSA-1588 identified only a small number of beneficiaries
aged 15 to 17 whose benefits were terminated due to marriage. SSA provided us with a
data extract of 18,887 records from its Master Beneficiary Record for beneficiaries
whose benefits were terminated for (1) not responding to the mailings, (2) self-reported
marriage or (3) being reinstated as a result of the BRP and whose dates of birth were
between December 31,1978 and January 1,1985. These records covered the period
January 1, 1994 through September 26, 2000. Of the 18,887 records, 5,732
beneficiaries had their benefits terminated for either not responding to the mailings
(4,582) or for self-reporting marriage (1,150).

Specifically, during cYs 1999 and 2000, only 26 beneficiaries aged 15 to 17 had their
benefits terminated for non-response,  and 10 had their benefits terminated for marriage,
a decline from previous years (see Appendix A, Table 2). When asked, SSA was
unable to explain this dramatic decrease.

Using these results and BRP cost information, we performed a cost-benefit analysis to
determine the feasibility of renewing the BRP contract to mail Forms SSA-1587 and
SSA-1588 to detect unreported marriages for dependents aged 15 to 17 (see Appendix
A). Based on our analysis, we believe the BRP's use of the Forms to detect these
marriages is no longer cost-beneficial.

On January 19, 2001, we issued an Early Alert memorandum, Use of Forms SSA-1587
and SSA-1588 to Detect Unreported Marriages for Dependents Aged 15 to 17
(A-13-01-31025), recommending that SSA not renew the BRP contract (see Appendix
a). In response, the Office of Program Benefits stated that "due to various factors,
including changes in processing the returned forms in the Agency's Wilkes-Barre Data
Processing Center, additional work needed to be done to further determine whether or
not the BRP contract should be continued, modified or discontinued." SSA also stated
that the Office of Quality Assurance and Performance Assessment would perform the
additional analysis during the BRP contract period, June 2001 through May 2002.

CONCLUSION

As a result of SSA's response to our Early Alert memorandum, we discontinued our
evaluation efforts to avoid duplicative work in the subject area. However, for the
Agency's use during its additional analysis, we are sharing the technical details of our
work. Appendix A describes the technical steps we took to determine the feasibility of
renewing the BRP contract to mail Forms SSA-1587and SSA-1588.




                                                J~~~
                                                James   G.   Huse,   Jr.

                                         ~
                                      Appendices
Appendix A – Cost-Benefit Analysis

Appendix B – EARLY ALERT: Use of Forms SSA-1587 and SSA-1588 to Detect
             Unreported Marriages for Dependents Aged 15 to 17 (A-13-01-31025)

Appendix C – Memorandum Regarding Additional Evaluation of the Beneficiary
            Recontact Program for Children Aged 15-17

Appendix D – OIG Contacts and Staff Acknowledgements
                                                                       Appendix A

Cost-Benefit Analysis
Assumptions for Calculating Potential Beneficiary Recontact Program
Costs

�	   Basic contract costs for printing and handling the Beneficiary Recontact Program
     (BRP) forms for Fiscal Years (FY) 1997 and 1998 were actual amounts, and FY
     1999 and 2000 costs were estimates.

�	   We used estimates for BRP mailing costs for July 1996 through September 2000 for
     dependent children ages 15 to 17.

�	   Wilkes-Barre Data Processing Center (WBDOC) processing costs covered period
     FYs 1997 through 2000.

�	   For our use, SSA identified the cost components related to the BRP. These
     included (1) basic contract costs for printing and handling forms,
     (2) estimated costs for mailing forms, and (3) estimated costs for processing forms
     at the WBDOC.

Assumptions for Calculating Potential Savings as a Result of the BRP
�	   We assumed potential benefits to be received by the beneficiary whose benefits
     were terminated to be a constant amount at time of termination.

�    All child beneficiaries whose benefits would be terminated at age 18.1

�	   No other intervention would cause the beneficiary to have benefits terminated before
     age 18.

Data Extract
SSA provided a data extract from the Master Beneficiary Record (MBR) for beneficiaries
who had benefits terminated as a result of the BRP (coded “T”), married (coded “M”), or
reinstated (coded “X”) and whose dates of birth were between December 31, 1978 and
January 1, 1985. The data extract also included beneficiaries’ names and Social
Security numbers . SSA provided a data extract containing 18,887 records that met
these criteria. The records covered the period January 1, 1994 through
September 26, 2000.



1
Program Operations Manual System, RS 00203.035A.2.


                                            A-1
Of the 18,887 records, we identified 5,732 beneficiaries whose Old-Age, Survivor, and
Disability Insurance (OASDI) benefits were terminated as a result of the BRP. Of these,
1,150 beneficiaries who returned Forms SSA-1587 and SSA-1588 self-reported they
were married. An additional 4,582 beneficiaries’ benefits were automatically terminated
because they neither responded to the mailings nor challenged the termination.

Sample
From the 5,732 records, we took a probe sample of 50 randomly selected Social
Security numbers. After reviewing the 50 records, we expanded our probe sample to
380 MBR files, yielding a 15-percent precision level. We reviewed each record to
determine the (1) amount of payment at termination, (2) beneficiary’s date of birth,
(3) family maximum benefit usage, (4) amount of any overpayment, (5) overpayment
balance, and (6) date of termination.

Calculations
To determine the expected date of termination due to age (DoTA), we subtracted the
date of birth (DoB) from the beneficiary’s date of attainment of age 18 (DoAoA18).

                               DoAoA18 – DoB = DoTA

To ascertain the potential months of overpayment (PMoOP), we subtracted the date of
termination for marriage (DoTM) from the expected date of termination due to age
(DoTA).

                               DoTA – DoTM = PMoOP

Since SSA establishes a maximum amount of benefit dollars for each family, we
determined the amount of each family member’s benefit amount after redistribution of
benefits among other family members. To determine the potential amount of
overpayment (PAoOP), we multiplied the potential months of overpayment (PMoOP) by
the amount of remaining benefit dollars after re-distribution (RDB).

                               PMoOP x RDB = PAoOP

We also determined the amount of overpayment and related amount recovered by SSA
created by an unreported marriage of the child beneficiary. We used the sample of 380
divided by the universe (5,732) to project the BRP’s potential savings applicable to the
OASDI trust fund.




                                          A-2
BRP Calculated Costs
As shown in Table 1, BRP costs exceeded $4 million from July 1996 through
September 2000.2

      Table 1. BRP Costs from July 1996 through September 2000 to Detect Unreported
                     Marriages for Dependent Children Aged 15 to 17

        Fiscal          Printing                                 WBDOC
         Year         and Handling           Mailing            Processing              Total
    1996                                   $369,113                                  $369,113
    1997                $115,733            252,157             $584,000              951,890
    1998                 111,114            292,576              603,900            1,007,590
    1999                 122,145            289,347              420,200              831,692
    2000                 125,275            293,120              476,200              894,595
        Total           $474,267           $1,496,313           $2,084,300           $4,054,880


Potential Savings as a Result of the BRP

Table 2 identifies benefit terminations for non-responders and reported marriages as
well as reinstatements by CY from the inception of the BRP in 1993 through
September 26, 2000. During CYs 1999 and 2000, the number of benefit terminations
for non-responders (26 in Column A) and unreported marriages (10 in Column B)
precipitously declined from prior years, while reinstatements (6,248 in Column E)
increased.3




2
 Our analysis did not include costs for (1) reinstatement time by the field office/program center for
erroneously terminated beneficiaries and (2) burden hours on the public.
3
    SSA was not able to explain the sudden changes.


                                                    A-3
          Table 2. Benefit Terminations Due to the BRP from January 1, 1994 through
                                          September 26, 2000

                          A               B                   C              D                  E
                                                   Terminations
                                                   Other than
                  Terminations        Terminations Non-Response

    Calendar      For Non-            For          And           Terminations Reinstate-

    Year          Response            Marriage     Marriage      Total        ments
    Before 1996        2,044            155                  43            2,242                27
    1996                 123            261                  24              408                25
    1997               1,627            452                 106            2,185               571
    1998                 762            272                 190            1,224             3,189
    1999                  18              8                 106              132             3,638
    2000                   8              2                  55               65             2,610
          Total        4,582          1,150                 524            6,256           10,060

Note: Information in Column A may contain cases that were erroneously terminated and subsequently
reinstated. Underpayments would result from this type of action (erroneous termination/reinstatement).
Columns A + B do not include widows’ benefits terminated due to disqualification resulting from termination of
child in-care.

We project SSA could have saved over $4.6 million, if it had not renewed the contract
for June 2001 through May 2002, assuming the BRP correctly detected married
dependent children who were aged 15 to 17. This projection was based on the
assumption that all cases in Column A were correct terminations. We added Column
A + Column B to get the total population of correctly terminated cases (N = 5,732).
Next, we randomly sampled 380 cases out of 5,732. For the sample, there were
$310,675 in benefit payments, which SSA could have recovered, if the termination had
been done timely. To project to the universe, we divided the $310,675 by a projection
factor of .06629449 (380/5732), yielding a figure of over $4.6 million.

Additionally, from our sample, we identified $68,067 in overpayments, which projected
to $1,026,737 in overpayments between July 1996 and September 2000.4 Of this
projected total, we estimated that SSA had only recovered 36.2 percent ($371,841),5
leaving 63.8 percent ($654,896) still outstanding.6




4
    $68,067 divided by a projection factor of .06629449 (380/5732).
5
    $24,651 divided by a projection factor of .06629449 (380/5732).
6
    $43,416 divided by a projection factor of .06629449 (380/5732).



                                                     A-4
                                           Appendix B

EARLY ALERT: Use of Forms SSA-1587 and SSA-1588
to Detect Unreported Marriages for Dependents Aged15 to
17(A-13-01-31025)
                                            Appendix C

Agency’s Memorandum Regarding Additional Evaluation
of the Beneficiary Recontact Program for Children Aged
15 to17
                                                                       Appendix D

OIG Contacts and Staff Acknowledgements
OIG Contacts

      Shirley E. Todd, Director, General Management Audit Division
       (410) 966-9365
      Carolyn Neuwirth, Deputy Director, (410) 966-1404

Acknowledgements

      Steve Weal, Auditor-in-Charge
      Thomas P. Tennant, Senior Auditor
      Kimberly Beauchamp, Writer-Editor
      N. Brennan Kraje, Jr., Statistician

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-01-31002.
                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security
                                                 1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders
                                                        25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                       1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                   Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human
resources. In addition, this office is the focal point for the OIG’s strategic planning function and
the development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
